Oversight Review             October 29, 2010 



       Report on Quality Control Review 

      of the Deloitte & Touche, LLP and 

   Defense Contract Audit Agency FY 2008 

  Single Audit of The Aerospace Corporation 


          Report No. D-2011-6-002 

     Additional Copies

     To obtain additional copies of the final report, visit the Web site of the Department
     of Defense Inspector General at www.dodig.mil/audit/reports or contact the
     Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760 or
     fax
     (703) 604-8982.

     Suggestions for Future Reviews

     To suggest ideas for or to request future reviews, contact the Office of the Assistant
     Inspector General for Audit Policy and Oversight at (703) 604-8760
     (DSN 664-8760) or fax (703) 604-8982. Ideas and requests can also be mailed to:


                          Office of the Assistant Inspector General
                               for Audit Policy and Oversight
                          Department of Defense Inspector General
                            400 Army Navy Drive (Room 833)
                                 Arlington, VA 22202-4704




Acronyms

AICPA               American Institute of Certified Public Accountants
DCAA                Defense Contract Audit Agency
OMB                 Office of Management and Budget
                                              INSPECTOR GENERAL    

                                             OEPARTMENT OF OEFENSE 

                                               400 ARMY NAVY DRIVE 

                                          ARLINGTON, VIRGINIA 22202-4704 




                                                                                                    OCT 29 2010
    Director 

    Defense Contract Audit Agency    


    Branch Manager    

    South Bay Branch    

    Defense Contract Audit Agency    


    Partner 

    Deloitte & Touche LLP    


    Board of Trustees 

    The Aerospace Corporation    


    Vice President, Chief Financial Officer and Treasurer
    The Aerospace Corporation

    SUBJECT: Report on Qnality Control Review of Deloitte & Touche, LLP and Defensc· Contract
             Audit Agency FY 2008 Single Audit of The Aerospace Corporation
             (Repol1 No. D-20 11-6-002)

        We are providing this report for your information and use. We considered management
comments on a draft of this rep0l1 when preparing the final report. As the cognizant Federal
agency for The Aerospace Corporation (Aerospace), we performed a review of the Deloitte &
Touche and the Defense Contract Audit Agency (DCAA), single audit and supporting working
papers for the audit period October 1,2007, through September 30, 2008. The purpose of our
review was to determine whether the audit was conducted in accordance with auditing standards l
and the auditing and reporting requircmcnts of Office of Management and Budget (OMB)
Circular A-B3, "Audits of States, Local Governments, and NOll-Profit Organizations," (Circular
A-133). Appendix A contains additional background, scope and methodology for the review.

        The Deloitte & Touche office in Los Angeles, California performed the audit of the
financial statements. Deloitte & Touche and the DCAA South Bay Branch Office in Gardena,
Califomia performed a coordinated audit ofthe research and dcvelopment program cluster.
Appendix B presents the research and development compliance requirements and the division of
audit responsibility between Deloitte & Touche and DCA A for the audit period ended
September 30, 2008.




I   Auditing standards iqclude both Government Auditing Standards and the American Institute ofCeltified Public
Accountants' audit standards.
Background. Aerospace is a nonprofit, Federally Funded Research and Development Center,
sponsored by the United States Air Force, and headquartered in El Segundo, California.
Aerospace also provides technical support to space-related programs managed by other Federal
agencies, international organizations, and foreign governments when in the national interest.

Aerospace expended $804.4 million in Federal awards for the fiscal year ended September 30,
2008, under one Federal program, the research and development cluster. Of the $804.4 million,
$748.3 million was expended for Department of Defense programs.

Review Results. DCAA did not comply with Circular A-133 reporting requirements. As a
result, DCAA must revise its FY 2008 Circular A-133 report on compliance and internal control
to include findings on the fraud disclosed by Aerospace management and a significant deficiency
related to internal control over compliance with the cash management requirements. We also
identified deficiencies in the performance of fraud risk assessment procedures, information
technology internal control testing and working paper documentation that need to be corrected in
future audits.

The Deloitte & Touche audit of the financial statements and the research and development
program cluster generally met auditing standards and Circular A-133 requirements.

Aerospace complied with Circular A-133 reporting requirements. However, Aerospace will
have to resubmit the FY 2008 Circular A-133 reporting package and data collection form to the
Federal Audit Clearinghouse upon receipt of the revised DCAA audit report.

Management Comments and DoD IG Response. DCAA and Aerospace agreed to take the
recommended actions. Management comments were responsive and conform to requirements;
no additional comments are needed. DCAA management comments are included in their
entirety at the end of this report.

Finding
Performance, Reporting and Documentation of the Federal Program Audit.

DCAA did not plan and perform sufficient fraud risk assessment procedures and they failed to
properly evaluate a deficiency in internal control with cash management requirements in
accordance with auditing standards and Circular A-133 requirements. As a result, the auditors
did not comply with Circular A-133 reporting requirements because they did not report a
disclosed fraud and a significant deficiency in internal control over compliance with cash
management requirements as findings in the FY 2008 single audit report. In addition, DCAA did
not perform all the planned testing of key information technology internal controls and did not
adequately document their working papers to support its conclusions for the compliance




                                               2

requirements tested and the scope of audit procedures performed by the DCAA Field
Detachment office 2.

        Fraud Risk Assessment Procedures. DCAA did not perform sufficient fraud risk
assessment procedures during the planning and performance of the audit. The Circular A-133
audit program procedures were limited to evaluating the fraud risk indicators identified in the
DoDIG “Handbook on Fraud Indicators for Contract Auditors.” As documented in the audit
working papers, the evaluation of the fraud indicators was based solely on information in the
permanent files and auditor experience with Aerospace. Based on this evaluation, the auditor
concluded that there were no indications of potential fraud which would require additional audit
procedures.

OMB Circular A-133 requires that the single audit be performed in accordance with government
auditing standards applicable to financial statements, which incorporate the American Institute of
Certified Public Accountants (AICPA) auditing standards. AICPA auditing standard, AU §316,
“Consideration of Fraud in a Financial Statement Audit,” requires the auditor to plan and
perform the audit to obtain reasonable assurance that material misstatements and noncompliance,
whether caused by error or fraud, are detected. Specifically, as a means of obtaining information
needed to identify fraud risk areas, the standard requires, among other procedures, inquiries
during the planning process of the organizations’ management to determine if they have
knowledge of any fraud or suspected fraud affecting the entity. The standard also requires
auditors to design and perform procedures in response to identified fraud and fraud risks.

DCAA did not design and perform additional procedures when they became aware of an
identified instance of fraud during the review of internal control over compliance with the
activities allowed or unallowed and allowable costs/cost principles requirements. DCAA was
informed by the Director of Internal Audit of a disclosed fraud involving a full-time employee
who worked for another government contractor while employed by Aerospace for a period of
several years. There was no indication in the audit documentation that DCAA considered
designing and performing procedures in response to this identified risk of labor mischarging as
required under auditing standards. We discussed this issue with the audit supervisor and were
advised that the auditors determined the identified fraud to be an isolated incident not indicative
of a systemic internal control risk and therefore, they did not believe that additional effort was
warranted. However, there was no documented evidence to support the DCAA conclusion. At a
minimum, we believe that the auditors should have designed, performed, and documented
additional procedures to assess the potential significance of this specific risk and the existence
and effectiveness of internal controls designed to prevent and detect this risk of labor
mischarging.

Neither the DCAA Contract Audit Manual Chapter 4-700 “Responsibilities for Detection and
Reporting of Suspected Irregularities”, Chapter 13 “Audits at Educational Institutions, Nonprofit
Organizations, and Federally Funded Research and Development Centers,” nor the DCAA
standard A-133 audit program contain sufficient guidance or procedures to ensure that auditors

2
 DCAA Field Detachment Offices perform contract audits related to sensitive compartmented information and
special access programs.


                                                      3

perform procedures on the consideration of fraud in a single audit in accordance with auditing
standards.

        Reporting Fraud in the Circular A-133 Audit Report. The DCAA auditors did not
report the identified fraud as an audit finding in the single audit report schedule of findings and
questioned costs in accordance with Circular A-133 reporting requirements. Circular A-133
§___.510(a)(6) states that the auditor shall report “known fraud affecting a Federal award, unless
such fraud is otherwise reported as an audit finding in the schedule of findings and questioned
costs for Federal awards.”

Based on our review of the DCAA Contract Audit Manual Chapter 13 “Audits at Educational
Institutions, Nonprofit Organizations, and Federally Funded Research and Development
Centers,” we were unable to find any guidance specific to reporting fraud in accordance with
OMB Circular A-133 requirements.

The working papers support that DCAA verified that the fraud was under investigation.
Therefore, the main focus of our quality control review was the lack of disclosure in the DCAA
audit report of the known fraud and DCAA’s failure to follow standards and design additional
steps related to the known fraud.

        Evaluation and Reporting of a Deficiency in Internal Control over Compliance with
Cash Management Requirements. DCAA did not properly evaluate and report a finding in
internal control disclosed during the review of the internal control over compliance with the cash
management requirements.

OMB Circular A-133 §___.510 (a)(1) requires the auditor to report significant deficiencies in
internal control over compliance as an audit finding in the Federal awards section of the schedule
of findings and questioned costs.

DCAA relied on the internal control testing performed in the FY 2008 direct billing review for
the review of cash management requirements. The objectives in the direct billing review
included determining whether Aerospace had effective controls to ensure that award costs billed
to the government on a reimbursement basis reflected actual incurred cost. The auditor
identified and tested four key internal controls intended to prevent noncompliance with this
requirement. One of the key controls tested was that billing requests contained the appropriate
level of management approval as required under Aerospace policies and procedures. The
auditors sampled sixteen billings and found that three billings were not approved by management
prior to requesting reimbursement from Federal agencies. All the exceptions were for web
invoice and phone automated billings for Department of Justice, National Aeronautics and Space
Administration, and National Science Foundation grants. DCAA discussed the exceptions with
the Aerospace representative who acknowledged that management approvals were not obtained
for web invoice and phone automated billings and the representative stated that this would be
corrected for future billings.

In evaluating whether to report the identified deficiency, the auditor noted that Aerospace had a
compensating control, the Monthly Account Reconciliation Report, wherein managers approve


                                                 4

the reconciliation of costs billed to the general ledger. DCAA stated that they considered this
[control] sufficient to satisfy the requirement for management approval prior to submitting
reimbursement requests. There was no documentation in the DCAA working papers to explain
how the Monthly Account Reconciliation, an after-the-fact procedure, compensated for the lack
of approval required prior to reimbursement requests. In addition, there was no documentation
to support that the auditors performed any testing of the compensating control to ensure its
operating effectiveness.

The AICPA auditing standard AU §325A.14 states that an effective compensating control limits
the severity of a control deficiency and prevents it from rising to the level of a significant
deficiency or a material weakness. These standards also state that to rely on a compensating
control to mitigate the severity of a control deficiency, the compensating control should be tested
and evaluated as to its operating effectiveness.

We requested additional information and documentation to support the auditors’ reliance on the
compensating control. However, DCAA did not provide any documentation to support the basis
for their acceptance of the Monthly Account Reconciliation as a compensating control or provide
support for the actual testing of the control. As a result, the lack of management approval of
billings prior to requesting reimbursement from Federal agencies should have been reported as a
significant deficiency in the audit report in accordance with Circular A-133 requirements.

       Performance and Documentation of Planned Testing of Information Technology
Internal Controls. DCAA did not complete the testing of key information technology controls
as planned and the documentation did not provide a clear understanding of the audit work
performed or the procedures relied on. Auditing standards require auditors to obtain an
understanding of information technology controls that are relevant to planning the audit and,
when there is an expectation that the auditor will rely on those controls, require the auditor to
perform tests of the controls to determine their operating effectiveness.

The DCAA planning and risk assessment documentation clearly indicate that the auditors
planned to rely on computer-based data in the performance of the single audit. The
documentation identified five specific key information technology system internal controls areas
that DCAA planned to test to determine if the information system controls were effective and
could be relied upon. The five control areas were: edit checks; exception reporting; access
controls; reviews of input and output data; and computer general controls and security controls.
Based on the audit documentation and several discussions with the supervisory auditor, the
auditors conclusions on information technology controls were based on reliance on work
performed by Deloitte & Touche in the FY 2008 financial statement audit and on the following
additional DCAA audits: “ODC and Indirect Cost IT Controls” performed in FY 2005;
“Accounting System IT Controls” and “Billing System IT Controls” audits performed in FY
2006; two FY 2008 floorcheck audits and an ongoing FY 2008 direct billing evaluation.

Circular A-133 requires annual testing of controls; therefore, the testing performed in the FY
2005 and FY 2006 reviews do not fulfill the current audit requirement. We discussed this with
the supervisory auditor who advised us that, although not clearly documented in the audit
working papers, the FY 2005 and 2006 review information was provided only for historical


                                                 5

purposes. In addition, we were unable to find documentation in the FY 2008 floorchecks and
billing system reviews to provide any support for testing key information technology internal
controls. Therefore, based on our review of the documentation, the only adequate source of
reliance was the audit work performed by Deloitte & Touche.

DCAA did review and document the procedures and results of the Deloitte & Touche audit of the
Aerospace information technology system internal controls. The supervisory auditor explained
that DCAA relied on the Deloitte & Touche audit for testing of the five key controls. However,
based on our independent review of the Deloitte & Touche audit and the DCAA audit
documentation, we found no evidence of testing for two of the five key controls: edit checks and
exception reporting key controls. We discussed this with the supervisory auditor who advised us
that, in hindsight, the DCAA FY 2008 approach was incorrect and they did not have to rely on
these two control areas [to gain reliance on the integrity of information produced by the
Aerospace financial system].

         Working Paper Documentation. DCAA did not adequately document the internal
controls tested for the cash management and special tests and provisions requirements, the
criteria used for activities allowed or unallowed and allowable costs/cost principles compliance
testing, and the coordination of the scope of audit work performed by the DCAA Field
Detachment office. In addition, the audit file contained a voluminous amount of work papers,
many of which simply duplicated the same information. Although we acknowledge that the
auditors believed that they were providing a good audit trail, we found the format and content of
the working papers lacked clarity and contributed to instances of inconsistencies between
working papers and the lack of required information in other working papers. As a result of the
documentation inadequacies, we spent considerable time obtaining verbal explanations and
reviewing additional information provided by the auditors in order to determine if there was
sufficient evidence to support the audit conclusions on the four compliance requirements audited
by DCAA.

Auditing standards require that audit documentation be appropriately detailed to provide a clear
understanding of the work performed and the significant audit judgments and conclusions
reached. The documentation should be in sufficient detail to enable an experienced auditor to
understand the nature, timing, and extent of audit procedures and the evidence obtained and its
source.

        Cash Management and Special Tests and Provisions Internal Control
Documentation. The DCAA auditors did not adequately document the internal controls they
relied on to support conclusions on the adequacy of controls for the cash management and
special tests and provisions requirements. Specifically, the working papers state that the auditors
planned to rely, in part, on internal controls tested in the review of activities allowed or
unallowed and allowable costs/cost principles requirements. However, the working papers did
not provide a link to the specific controls tested that would satisfy the internal control objectives
for the cash management and special tests and provisions requirements. The auditors
subsequently provided a cross-reference to the controls tested for activities allowed or unallowed
and allowable costs/cost principles controls that DCAA relied on to support the audit
conclusions. Without this cross-reference we would not have been able to determine the


                                                  6

adequacy of the procedures performed or the evidence obtained to support the auditor’s
conclusions.

        Testing Compliance for Activities Allowed or Unallowed and Allowable Costs/Cost
Principles Compliance Requirements. The DCAA auditors did not adequately document the
review of compliance for the activities allowed or unallowed and allowable costs/cost principles
requirements. Specifically, the documentation did not identify the specific cost principle criteria
used to review costs for allowability; did not provide the basis for the judgment that internal
control exceptions noted during floorchecks were not considered significant; and did not
document the procedures performed and the results of those procedures to verify the existence of
employees not present during the floorchecks. In addition, the auditors did not document that
they verified the timecard authorizations within the electronic timekeeping system. The auditors
subsequently provided additional explanations and documentation to support their conclusions.

       Field Detachment Coordination. The DCAA working papers did not adequately
document, as required by government auditing standards and DCAA policy, the coordination
with DCAA Field Detachment or clearly identify the audit work performed by the Field
Detachment auditors. DCAA Instruction No. 7643.1, “Audit Coordination Between Regional
and Field Detachment Offices,” dated July 27, 2007, requires the Branch Manager and
supervisory auditor to maintain adequate written documentation of the coordination with Field
Detachment during audit planning and performance.

The DCAA coordination matrix documents an audit scope for Field Detachment that differs from
the scope reported in the Field Detachment audit report, dated July 16, 2009. The coordination
matrix indicates that Field Detachment was responsible for the direct cost testing of the activities
allowed or unallowed and the allowable costs/cost principles; cash management; and special tests
and provisions compliance requirements, while the audit report states that the auditors reviewed
other direct costs, which includes direct travel, professional fees (consultants and contract labor),
special purpose plant equipment, and other direct costs. The working papers do not document
the reason(s) for the scope change. In addition, we could not determine from the working papers
whether the Field Detachment was responsible for performing audit procedures only on awards
under their cognizance or whether the Field Detachment scope also included awards under the
South Bay Branch Office cognizance. As a result, we were unable to determine if there was a
gap in audit coverage that would impact the adequacy of the DCAA opinion. Through
discussions with the Branch Office and Field Detachment supervisory auditors, we determined
that, although not clearly documented, the Field Detachment scope included other direct costs for
all Aerospace awards and the Branch scope included direct costs for all Aerospace awards.


Conclusion: The deficiencies disclosed by our review indicate that DCAA management needs to
implement more effective quality control procedures for the Circular A-133 audits and provide
additional training in auditing standards and OMB Circular A-133 requirements to auditors
performing OMB Circular A-133 audits.

Recommendations and Management Comments


                                                 7

1. 	   We recommend that the Director, Defense Contract Audit Agency:

       a. 	   Revise the Defense Contract Audit Agency Circular A-133 standard audit
              program to include the procedures required by the American Institute of
              Certified Public Accountants’ Statements on Auditing Standards §316,
              “Consideration of Fraud in a Financial Statement Audit.”

       b. 	   Revise the DCAA Contract Audit Manual Chapter 13, “Audits at
              Educational Institutions, Nonprofit Organizations, and Federally Funded
              Research and Development Centers (FFRDCs),” to include guidance on
              performing fraud risk assessment procedures and reporting in the Circular
              A-133 audit report.

DCAA Comments. The Director, DCAA agreed to take the recommended actions.
Management comments are included in their entirety at the end of this report.

2. 	   We recommend that the Branch Manager, South Bay Branch, Defense Contract
       Audit Agency

       a. 	   Revise the FY 2008 Defense Contract Audit Agency audit report to include
              the findings related to the fraud identified by Aerospace management and
              the significant deficiency in internal control over compliance with cash
              management requirements in the schedule of findings and questioned costs.

       b.		   Forward the revised report to the Aerospace Corporation for submission to
              the Federal Audit Clearinghouse.

       c. 	   Strengthen existing or implement additional quality control procedures for
              Offices of Management and Budget Circular A-133 audits to ensure that
              future audits comply with auditing standards and Circular A-133
              requirements for the planning, performance and documentation of the audit.

       d.		   Provide staff performing Circular A-133 audits formal training in the
              application and implementation of auditing standards in meeting Circular
              A-133 audit requirements.

DCAA Comments. The Branch Manager, South Bay Branch, DCAA agreed to take the
recommended actions. Management comments are included in their entirety at the end of this
report.

3. 	   We recommend that the Vice President, Chief Financial Officer, and Treasurer, The
       Aerospace Corporation, within 30 days of receipt of the revised report from the
       DCAA, file the revised FY 2008 Circular A-133 reporting package and Data
       Collection Form with the Federal Audit Clearinghouse and notify the DoD Office of
       Inspector General upon completion.


                                              8

The Aerospace Corporation Comments. The Aerospace Corporation did not provide formal
comments to the draft repOit. However, The Vice President, Chief Financial Officer, and
Treasurer, The Aerospace Corporation agreed in an email to take the recommended actions.

Other Matters ofInterest. The DCAA Contract Audit Manual Chapter 13, "Audits at
Educational Institutions, Nonprofit Organizations, and Federally Funded Research and
Development Centers," section 700, "OMB Circular A-l33 Audits and Reports," should be
updated to reflect the current terminology on communicating matters related to internal control
in accordance with OMB Circular A-133 repolting requirements. Specifically, effective with the
June 26,2007 Federal Register changes to OMB Circular A-133, the term "repOitable condition"
has been replaced with "significant deficiency" to conform with current auditing standards.

nCAA Comments. The Director, DCAA agreed to take the recommended actions.
Management comments are included in their entirety at the end of this repOit.

        We appreciate the cOUltesies extended to the audit staff. For additional information on
this repOlt, please contact Ms. Janet Stern at (703) 604-8750 (DSN 664-8750).



                                      /r~:;t)
                                               Randolph R. Stone
                                            Deputy Inspector General
                                             for Policy and Oversight




                                               9

Appendix A. Quality Control Review Process
Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the financial
management of State and Local Governments and nonprofit organizations by establishing one
uniform set of auditing and reporting requirements for all Federal award recipients required to
obtain a single audit. Circular A-133 establishes policies that guide implementation of the Single
Audit Act and provides an administrative foundation for uniform audit requirements of non-
Federal entities administering Federal awards. Entities that expend $500,000 or more are subject
to the Single Audit Act and the audit requirements in Circular A-133 and therefore must have an
annual single or program-specific audit performed under Government Auditing Standards and
submit a complete reporting package to the Federal Audit Clearinghouse.

We reviewed the Deloitte & Touche, LLP and Defense Contract Audit Agency FY 2008 single
audit of The Aerospace Corporation and the reporting package that was submitted to the Federal
Audit Clearinghouse on July 30, 2009, using the 1999 edition of the “Uniform Quality Control
Guide for the A-133 Audits” (the Guide). The Guide applies to any single audit that is subject to
the requirements of Circular A-133 and is the approved President’s Council on Integrity and
Efficiency 3 checklist used for performing quality control reviews. We performed the review
from September 2009 through August 2010. The review focused on the following qualitative
aspects of the single audit:

               •      Qualification of Auditors,

               •      Independence,

               •      Due Professional Care,

               •      Planning and Supervision,

               •      Internal Control and Compliance testing,

               •      Schedule of Expenditures of Federal Awards, and

               •      Data Collection Form.

Prior Quality Control Reviews
Since October 1, 2006, we have performed two quality control reviews each of DCAA and
Deloitte & Touche OMB Circular A-133 audits. All four audits contained deficiencies resulting
in findings and recommendations on audit planning/coordination, performance, and


3
 The President’s Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency
combined into the Council of the Inspectors General on Integrity and Efficiency in accordance with the Inspector
General Reform Act of 2008.


                                                        10 

documentation. Unrestricted IG DoD reports can be accessed at
http://www.dodig.mil/audit/reports.


IG DoD Reports
IG DoD Report No. D-2009-6-007, “Report on Quality Control Review of Deloitte & Touche,
LLP FY 2007 Single Audit of Battelle Memorial Institute and Subsidiaries” June 29, 2009

IG DoD Report No. D-2008-6-002, “Quality Control Review of FY 2006 Single Audit of
Syracuse Research Corporation,” January 25, 2008

IG DoD Report No. D-2007-6-007, “Review of South Carolina Research Authority's FY 2005
Single Audit Performed by Deloitte and Touche, LLP” July 25, 2007

IG DoD Report No. D-2006-001-002, “Report on Quality Control Review of the
PricewaterhouseCoopers LLP and the Defense Contract Audit Agency Office of Management
and Budget Circular A-133 Audit Report of the RAND Corporation, Fiscal Year Ended
September 29, 2002” December 16, 2005




                                             11 

 Appendix B. Compliance Requirements*




                                                             Applicable
   OMB Circular A-133 Compliance Requirements                                    Not
                                                                               Applicable
                                                          DCAA      Deloitte

Activities Allowed/Unallowed                                X

Allowable Costs/Cost Principles                             X

Cash Management                                             X

Davis-Bacon Act                                                                     X

Eligibility                                                                         X

Equipment and Real Property Management                                 X

Matching, Level of Effort, Earmarking                                  X

Period of Availability of Federal Funds                                X

Procurement, Suspension, and Debarment                                 X

Program Income                                                                      X

Real Property Acquisition and Relocation Assistance                                 X

Reporting                                                              X

Subrecipient Monitoring                                                             X

Special Tests and Provisions                                X

 *The auditors determine whether a compliance requirement is applicable or not to the
 audited organization.




                                           12 

Defense Contract Audit Agency Management
Comments


                                            DEFE:"' S..: CO"TltACf
                                            DEFE:'IOS    C01\"lotACT AU I)IT AG
                                                                     AUl>ll' AG£NCY
                                                                                 ENCY
                                                DE
                                                m : I'ART!\
                                                     rARTMU4"IT
                                                              ENT OF OEFL
                                                                      DEFi.'iS[
                                                                             'iS£
                                                  .n$~O
                                                  'T:l\ ~<> ..
                                                            N.~" I •. "'NG"        1«1"".
                                                                                ... ~ 1IO"'''. SlJ
                                                                      ..:.,..c,,,,,~           51J1r' rt 11l.
                                                                                                      r£ll.''
                                                          FQ_T
                                                          OllU I'\f:       v ... ::-...",
                                                               Rl:lI,vmll. v"      - . . . , ..




  liH.CE ,,. 'MI DIUCTDR
                                                                                                                OctDbe~ 12, 2010
                                                                                                                Oct"ber     20 10


         MEMORANDUM  FOR DEPARTMEN.
         MEMORA:mlUM fOR DEPARTMENT OF DEFENSE, OFFICE OF C>lSPECfOR
                                                             DlSPEcroR
                         GEN1:RAL, DEpUTY L'ISPEC'fOR GE'N'ERAL
                         GENERAL,                     GENERAL FOR _AUOrr
                                                                   AUDrr
                         PO LI CY A!'1P
                         POLlCY   ANI) OVERSIGHT
                                        OVERS IGHT

         AITF.NTION: Mr. Randolph R. Slone
         ATTENTION:                  Stone

        SS LllJECJ:
           LlllJECr-: Response 10 to Dcpanment of Defense Office of Inspeclor Genl'fal Genem.J. (DoDIG) Dmft   Dnlft
                      Report,
                      Report. Quality CnlJfrol
                                         O:mfro/ Review
                                                   }levi"", oflhe  De/Clille & Tt)uche,
                                                            oflht! De/oil/I!   T(I'~cht!, L'"P
                                                                                           LLP m.d    Oif~'I1.Se
                                                                                                ,/tid 1)iferzse
                      Contract A"dltudlr Age
                                         Ag.",'Y
                                             " cy FY 1ZOOS
                                                       008 S in
                                                             ingle
                                                               gle Audlt
                                                                    Audit oJ/The
                                                                           of77teAeros
                                                                                  Aermpoce[>Uce Corpo    ral'oll. dBled
                                                                                                CorpmTltiofl,     Mled
                      Sel'
                      Sq>l"",b;:r                      No. D2009·PlPOAC·O]02.(l(lO)
                           i"",l>er 9, 2010 (Project No_    D2009-DlPOAC..{l]02.000)

                 Thank y<lu for Ill"
                 Thank)'ilU        Ihe opronulli ly 10 1'CI;p".)d
                                       opponlJllily    n:spond 10 Ih"thu s~ubjl:Cl
                                                                           ubjl<Cl dndl  n:pon, Q",,/fry
                                                                                   d",f\ repon, QIIlI/fty Control
        Rel.je",
        Rev;e w of
                 o/Ihe   Deloille &
                     lhe De/oilll!  &: Touche, UP "ndand .De/ense
                                                          Defense COn/
                                                                    COn/fac      Audit A8en~y
                                                                           ractI Audi( Agency FYF), 1008
                                                                                                    .lOON Sb'g/l'.A",lIt
                                                                                                          Sj"s/eA",1i1
        of The Il<:rospuc-e
                 l crrupoce Corporal;m
                            Corpormjoll.•. The followi
                                                   followinn g art!
                                                               are DC
                                                                    OCAA        commenlS and TespOnSCslo
                                                                       AA 's comments                         eaell of
                                                                                                responses 10 eacll
        Ihe recomnt~ndnlions impacting DCM.
        [he recommendations                   DCAA.

        DoO IC Reco
        DoOlG      Rel:ommmmeudat     ioD I .a:
                               e udalioD        Werocommcnd
                                            .M: Wc   recommend Ihallhe           Diroclor, DefcnseContract
                                                                     thai the Director,     DefcnseComroclAudil Audit
        Ag<:l)cy, revise Q
        Agency,               u, Ddens
                            tl)e Ddense  " Co ntTael A udit Agency Circular A -133
                                           ConlrnCl                                   - 133 Stand       Audill PTogTMl
                                                                                            Staod a r d Audi   Pmgrnnl to
          ncludee t he procedures required by III"
        i nclud                                   Ille American lnsli[uu)
                                                                      lnstilut.:: ofCertifi<>d
                                                                                  ofCertifitod Public   Accountants''
                                                                                               P" blicAccounlllIlLS
        StatomcnLS on
        SW-tomenlS     Oll Auditll)g    tandardss Sec
                           Audit'1)g S tondl!l'd      tion 3 1! 6 . "Collsideration
                                                  Section                                  Fraud inna
                                                                    "Considcr:lIioll of Froud           Finnn~ini SIO-k.'I1lC
                                                                                                     a Flnancinl  Stntcrnent Ill
        Audit.""
        Audit.

         VCAA
         VC!\A R esponse;
                 esPO0 5C; Concur.
                           Concur . Dy January lOll,            revise the-
                                               201 1, DCAA will ro:visc til<' A·D3
                                                                              A- 133 SIt andard
                                                                                         aml;ud Audit
         Pmgfllm
         Pmg            include lh"
               ... m 10 indude      the pr<><:woJres
                                        procedOJres r"'1 ,dr,-,,1 hr
                                                      C'1u;r",,]  hy lh~
                                                                     th~ ),
                                                                         Arn~riC1ln    iIL<ti!u!" nfr
                                                                            merion frL<li1U1C       "rC"   .... rlil
                                                                                                                rtilkd Punli
                                                                                                                           Puhli,..,
         lI<:<:ounl~nLS' S lal.-m
         Auounlants'                      ~'" Audiling
                                     ents on
                            t31 .. menLS                S'an,bnls S~cllon
                                              Audi[in!! St3nd:IrIJ.   S~CI]on 316.     ~Consitl
                                                                               3 t6 , MCons     iJ"<' ,."lion
                                                                                                      '''dtion of I' fI r .ud in ",
         Fi n:utcial
             ancial Stat..mrn        Aud it. " DCA A will also add additional proc~durc.
                      Stalltm~llIr- Audil.                                            proc~dnre~ an             reporting identified
                                                                                                         nn «"porting
         fr~ud , in acco
         fraud             rdancec with OMS Circ
                     accor<hnc                    Circular    A-I33 Se<;tion
                                                       ular A·I33     SC(:tion .5    0{a)(6) «nd
                                                                               .S 1I O{a)(6)   and GAGAS $cc          Section
                                                                                                                            tion5.10.
                                                                                                                                   5. 10.

                   Rc~ommclld R lj o o I.b
         D o Di G RecoOlmendation       I .b:: We  n:commc-nd thai Ihe
                                               We TIX'Ommmd               Direclor, Def
                                                                     the- Director,      ense COnltllC1
                                                                                    Defense    COntTllc-1 Audit
                                                                                                          Audil
         Agency. r evise the DCAA Contrnct                 anual Chap
                                       Contrncl Audit M Anual          ter 13, MAndils
                                                                  Chapler      MAudits at al Educational
                                                                                             Edueationnl
         Instilutions, No
         Institutions. KonproiirOrgamz~       [ions. and reder:llly
                           nprofirOrganiz~lions.                    tWlded Research
                                                         redealty t-unded    Researeh and [)evelopment
                                                                                              Oeveiopmem Cen ters
                                                                                                                lCl'S
         (}1'ROCs)," 10
         {}'!'R[)Cs)."  to inc lude guidance on
                           include             un performing froud
                                                              fraud risk assessmeut
                                                                          IlS8CS!f7lCnt procedures
                                                                                        procOOUJ;C5 and reporting
         in Ihe  CircuJ~r A-133 "",dit
            Ille Circular         "",dil~n
                                        rcp<>rt..

         VC AA R ts
         [)CAA         t1 poll
                          pon se
                               Je:: C.meuT.
                                      oncur. By January
                                                  J!lIIuary 20 111L. DCAA will    update Ihe
                                                                            wi ll updale    the Con
                                                                                                 ConlrnCl Audit Manual
                                                                                                    tract Audil  Manual,.
         Chapler 13. 10 pro  provide                  perfon'uinli: fraud ri!lk
                                  vide guidance on pcriomlillg            risk asscssmen
                                                                                a.ssCS5I1lemt procedures and reporti    ng in
                                                                                                                rt'pOning
         me             audit rep<:>rt
         the A ·- 1I 33 audil   rep<)fI,, in accomance with
                                                        wi\h OMS
                                                              OMB Circul Ar  Ar A ·133
                                                                                   · 133 a,,,,
                                                                                         l'\I.l AICPA.Audiljng
                                                                                                AICPA AudiTing Standard
                                                                                                                  Standar<;!
             n:quircmenls .,
         316 n''luircmUlI"




                                                                           13 

PPD 225.4 (D2009·DIPOAC'{)302.000)                                                   Octobu 1"2. 2010
SUDJECf:     R~ to        Department of Defense Office of inspe<:lOrGen"",1 (DoDJG) Draft
             Report, Quality Cnnlrol Review of the De/oille. & Touche. UP and D~fe."se
             COJtlract Audit AgenCy FY 2()(M Single lIudir afThe Al'rO$pace CorporQ/ion, dated.
             Sl-plembcr 9, 2010 (Projea No. D2009· DIPOAC-{)302.000)

DoDiG R"":OOlm CDda{i oD 2.a: We rocommcnd that the Branch Manager, South Bay Bnmch,
Ddc"",,, Contraci Audl{ Agency revIS(: the FY 2008 Defense Contract Audit Agency audit fCPOrt
10 include the findil1.!1s rc13u:d 10 the fraud identified by Aerospace management and Ul~
significan t deficiency in internal control over compiiWlcc with cash ma(111gc'l)Cnl requirements ill
the schooulc offindinssllIlrl qut!SIinned custs.

DC AA Res p"nse: Cuncur. The FAD will i!>.~ue by Ot'Cember 31. 2010 1\ supplemental FY 200S
rqxlrt to lI"Icludethe findings re laled 10 the fraud identified by Aerospace managemenl and the
significant deficiency in internal control ovcr compliance wilh eash management fOl[uiremeUlS in
the schoou le uf finding:> iU1d questioned COSt!I.

DoDIC Recommendations 2.b : We recommend that the Sral1rh Manager, So uth Bay Bnmc.h,
Defense Contract Audi l Agency forward the revised report 10 the Aerospace Corporation for
submission 10 the Feder.!l Audit Clearinghonse.

DCAA Rl'"lIpotl sc; Cotl~ur, T he FAD will provide the Aerospace Curp<mtl iun a copy or Ih'"
supplemental n-port for submission 10 the Federal Audit Clearinghouse.

h o OIG Recu mmend ations 2 . ~: We recommend ih3t the Branch Maollgcr, South Bay Branch.
~fcnsc   Contract Audit Agcncy slTl:ngtbcn existing in implement additional quality control
procedures for omc~ ofManagcment IUld a mlger Cireular A-I)3 audits 10 ensure tbat ruture
audits comply with auditing staudards lind C ireular A·I)) requirements for the plltrtning,
performance and documentation orthe audit.

DC AA Rcspon H: Concorr. By Decemberl\, 2010, ihe FAD will re-evaluate its quality control
procedures speci fi cally a! they relate to A- I 33 audjrs and devclop enhancemenrs as net:essary 10
ensure fut ure audits:lfC. planned, pcrfomloo, documented. and reported in compliance with all
applicable auditing ~tllndards 3111\ Cireular A· 13) requiremen ts. CUITCnt quality control
p~dures. devclopoo in accurdanee wi th Western Rcgion InstruCTion No. 7640.7, require thst
OMS Circular A·I)3 audit assignments and l"L'P!ln~ be rc~icwt:d :lnd approved by Ihe regional
audit manager (RA,\1) prior to !?pOrt issuance. Additionally, management will immoorrltely
begin requiring a peer Tllvi ew be conducted on A · IB audit working papcu by a supervisory
auditor or FAD special as~istant fur quality iIldcpcndcru of the A·13) audit to ~ure planned
audit step' an: pcrfonnoo and sppropriutelydocUntcntod,

DoDlG Rtco 'lImcndation~ 2. d : Wc rcoommend tbat the BrlU)ch Manager, South Bay Brunch.
Defense Contract Audit AgCllcyprovide stafT performing Circular A-133 audit formallT3ining in
the applic ation and imp'leml-nt.:llion or auditing 5tandards in meeting CirculI!.!" A- 133 audit
requirel11ents.

DCAA Respon se: Concur. The FAO will ensure lhal auditors and supervisors pL"Tforming
OMB Circular A·13] coml,lianc\' audits havc training in the applkation and imp lementation of

                                                  ,




                                            14 

PPD 225.4 (D2009-DIPOAC-0302 .(){)())                                         !l(:tober 12 • .-2010
SUB1ECT: R"fiJlOnSC 10 Dqlanm~'1\! lIf Dcf~nse Office of lospeclor Gcncrnl (PoDIG) Draft
            Report. QUQ.lily ('omro/ X ...·/tnv of III" /Jdoiu" & Tood,e, UP ,md Def~n..e
           Crmlrtler Am'l it Ag"my F I' 1008 Single Alli/;, vfThe.Ao:r(JSpact CorporUlion, Uate<!
           September 9. 10tO (project No. D2009-DlPOAC-0302.000)

auditing $tandlirds ill mceling Circu lar A- I 3) a~dit ruqllirc",ent8 in ""c",d~ncc with GAGAS
3.40 and OCM MR..O 08-PPD·03l(R), dalo:J Octab~-r 2, 2008 by D"""mb~r 3 1. 201 0. The FAD
will pr.."'S"nl the specific DoD IG findings to audi tors perfonning A-I)3 audits by November 30,
1010.

       Pl~as~ s= th" enclured WCS!~-rn Region. OCAA. R"sJl'OnscS 10 tbc DoDlG Draft Tcpon
for more detailed respon51!\1tq DoDIG R ecommendation 2.

Do nl G O ther l\l au"n oJ I.D tert$t , TIle DCAA Contract Audi! Manual . C11~p !er 13, Autlib al
&!ucHtiollHl lrollitu!ium, Nonprofit Organiz:uiOI\$, aud Federall y Funded Rese:u-ch ilnd
IXvclopmel1t Cemers. Section 700. "OMR Circular A-133 Audits and Repo rts.· ' should be
updMe(! to reflect the current H:aninology on communicating mliuers ...,)at"d to if\leroal COn1rol,
in 3ecoroll.llCe with OMB CiroulHf A. I)3 reponing requin:'llculs. Sp~"Cir.ca.lly, effec!ive with the
June 26,2007 Fed" ",1 Regi~lCJ" eha.uges 10 OMS Circular A.133. the teon ·'reportllble condition"
has becn replaced with ··signifi~ant deficiency" to confann with currenl :ludiling ~tandurds_

DC AA Res pon ~e 10 Do Dl G O lhe r Ma il ers of lu lcr csl: DCAA wLlJ update the CQnlr.et .'\uelil
Manua l, t""haptcr ]3. Se<:lion 700 for the change in t"mli'IOIQgy on communicat ing nlall~n<
...,19ted 10 internal control. in acc<ordanc;; with OMS Circular-A-133 repon ing requ;rcmimls.

       Questions regarding this mcmornndum shou ld be direcled to Ms. EMher Fischer, Chief.
Policy Progr;ulls Divhion nl (703) 7(,7-2297.




Et1clu~lill):
  OCAA W<:Stem Region Response




                                                  ,




                                                15 

                                                       WES1'ERN RF.G lI1N
                                            IJn-ENSl: CONTRi\CT i\UDlT AG ENCY
                                            16700 VAl.l.EV VIEW AVEN UIO, SUf lll 300
                                              LA M1RADi\, Ci\Uf OR."lli\ <XI6JS ·SS:l3


" " .. v . . . . . ,~



         RS-42'2 H                                                                       October 6, 20 10

         MEMORANDUM FOR DIRECTOR. oCAA

         A TfENTION: pro         (E~ther   Fischer)

         SUHJI.iL' T :   Respoll~c 10 [)(jU IG Preliminary Review Resuho< - Report on Quality Co ntrol
                         Review of Deloille 8.:. Touche. LLI' lind lJe f"tnse (;onlr.tet Audil Agency FY 2008
                         Si ngl e Audi t oflhe Aerospace Corporali oll (Project !'JQ. D2009-DH'OAC·030"l.IJOO)

                   We have reviewed Ihe subject DoDlG draft TCpon fll1ding! lind rCCt)mmendatioll!
         regarding DCAA FY 2008 Sinl:le Audit ofth~ Aerospitcc Corporation, The DoDIG '! overu ll
         conc]u ~ion was thai DCAt\ did not co mpl)" with Circular 1\-1 33 reponiH\: rt:<juiremcnts. Our
         response to Ihe 00010 findings and recnmmendalion~ liS thc~' relate 10 the South Say BnlJ1~h
         O ffi ce foll ows:

         RESI'ONSE TO DoDiG DRAFT RE C OMMENUATIONS:

                   DoDI G Rc~o"'mend a tion! 2a: We.' recom",el1d Ihr,( ,he BNlnch MmlOgu, StJlllh Bo)'
         RrrJ}7ch O.D/c'~. D<!/efl.5l< ecmlr(1cl Audit tlg~",;}', revis*, the FY ]OO8lk/er!s~ Contraci Audit
         Agency (ludil rtpofl /0 incfude lhefindlllgs r~/(1ll:d 10 "!I!.fr",,,1 idMIif/l:d by Aerospace
         III(IIIOg,,"'Ol"ll and ,he ,. ignificOIJI defic/~I1CY;r! Infemal cOlllrol(wer cQmplfam:/: wilh cmilt
         monag~m,'''' r t qui,enJ&>u i n 1M sch"d"le affindhlg,~ ol1d qua,"lianed costs,

                DC AA Re!po nse: Concur. Thl! FAD will issue by Dt-i:cmber 31, 2UI O B s"pplemen la\
         FY 2008 rep<.)n to indnde the fmding$ re illted 10 the fmud identified by Aerospace management
         and the ~ignifi<an l deficiency in inlemal COnlfOl over complinnce wilh cash manag~'fTlent
         rcquirem~n\s in thc.)oI;lteoJule offinoJillgs and questioned COSlli.


                  During OUr FY '2 008 OMR Circ Ular A- 133 Budit ofthc Ae rospace Corpurat lon. (he FAD
         was inlonned lhal an in$ lance of po lent;a l fraud was ide nlifi ro and
                                                                               re["lOned 10 Ihe DoDi G by
         Aecospaee. T he FAO'$ inlCJ"pNlation ot' Ihe TI.'q uin:ments ofCireulnr A. 13) wos lhat thc
         po lenliul fraud was nOI required to be reponed. I'ara graph S I Q(aX6) oflhc circular Slales:

                           Thi s pnrogr"ph does not require the auditor to make ~n addilional
                           rc:po"inS when Ihe auditor cunfi rms lhat the fraud was reported
                           outsi de o flhe auditor's rCpOn$ U1Jd~r lhc diree1 "'poninK
                           requirements of GAGAS .


                                                                                                Enclu ~ ur"




                                                         16 

RS-4225.4                                                                      Q.:lObc:r 6. 20 I 0
SU OJECT~     Rcspcmse to DoDiG I'rt:liminary Review ResullS - Rcpon on QualllY Con lrol
              Re vi... w ofOeloine & Touche. LLP and Deren."" Contract Audit Agency FY ?:OO!!
              Sinsle Aud it of tbe Aerospace Corporation (project No. D2009-DlPOAl:-0302.000)


        The uudilors confirmed tb~1 Aero~p;lce look apprOprilh;: aClion wKl n:pon<...J Ihe potenlial
fraud to tbose ch~rged wiln governance as required. The.<:fo~. the FAD concluded at Ihe time
thai the ft.'quircmenl for addi li ooal r~porting was nOi required WIder GAGAS 5. 18. N"cyertheJe!>.~.
Ihe report will be rev ised a:I n:conuncnded.

        [II ,•••klil ioll. lh" rAO hiS.'; initialeU com;aive ""l ions during its audit of the Aerospace FY
2009 OMS Circulm A-IB audit in .-...spon.<:e In ICi comnwms provi<kd d'lring thc course of the
FY 2008 QCR review. The FAO has included Ihe proce<iure§ req uired by the Ameriean Institute
of Certified Public Accounlants ' Statemenls on Auditing Standards 5o::ction· J 16, ·'Considern!ion
of Fraud in 6 Financial Statemen l Audit"" and will rcport identifIed fraud in accordance with
OM B Cin;ular A-I 33 5l',1;01l .5IO(a){6) anll OA OAS Section 5.1 O. if "llPlicab le.

        0 001<'; R cell n'm ~Otl at io ns 2b: We recom mend Ihm Ihs Branch Manager. Sall/h Ba}'
l/ranC"h Offi"'. O,,/en$C Contract Audit Agency forwor d Ihe r",·iud Npnrr 10 the Aerosp<'("~
CQrpor<llionjor submiu;on 10 Ihe F.,d",.allludi, CiearinK!lOwse.

       IlCAA Re_plln,e; C.... ncur. The FAO will provide the Aerospace Corp(Imlion .. copy " r
the supplemental "'port for submis..;ion 10 lhe Federal Audit C1eari nghollSC.

         Do Ole R«omnltndalionJ 2e: We rr:camm"IKi Ihallhc Branch Managu. Soulh &y
Bru",;" Office. Deftll.w COm,."el A" d;l ttg,,,cy. slr~"glhcn exisling f)i" implemem addilltmul
qualil)! comrul p'ncfdllrc.~filr Offke of"'''u/lugemt rll amI 81"lgel Gin·ular A-/JJ a"dif,· /0
ens.,,·' I"p/fll/llre ol/d;/s crimp!)! with IJ/ldit7ng siamiords and Circular A _IJJ r"(/IIiremf!nI.~for
II,e planning, performance Imd doel/mtnlatiQn      oflh~   alldil.

        DCAA RC~lJUnu: Concur. By December J I. 2010, the FAO will re·evaluate il.'! quality
cOnlral proccdurc§ specificall y 11$ th~y relate to A- 133 audjl~ and develop e,d'<u!Cellleut5 11.:5
nCC""$lIry to ensure future audits are plnnned. perform~ll, documented. and reported in
compl i:mce with all applicable auditing ~w.nd!lrds lind Circular A-1 33 requirements. Cu~ n(
quality control pmcl-dures, developed in IlC:conhmce ,,~ th WeSlcm Region Instruction No.
7640.7, rc<juire thm OMD Circular A·13) audil ;u5ignments and rcport~ be rcviewcd and
apprOved by thc re~ionAi lluWt mal1lll:er (RAM) pl"iur lU 'epQrl issuance. Additionally,
managem""t will immediately begin requiring A pter review be conducted on A- I33 audil
"'OTking papers by II supervisory auditor or FAD ~cJa! Assistant for quality indcpcnll(,nJ of (he.
A-I 33 !Iud" to enSure planned aud it steps a~ performed nnd appropriately documentl..J.

        ])"DIG Rec""'lJIcnll"li"", 20.1: 11'.. r~<:OTmlllmd /hat I/'e Bnl/lch Mal/ager. Suulh /lay
.Bmnch OjJia.. Def~".~e C(Jn/roc, Audll Agfncy, prOl"idi! $Ioffper/m·mfng Circular .... ] JJ o!l</ir
/o'lno/lraini" f? in Ihe app/i,·,,'ion omllmplenumuJ/ioll of oudm"8 s/QmJarris /" =,,/i"g C irell/or
A-I J3 oudil fI!lI",·remenls.

       I)C AA RC8ponsc; COlltU!. The FAO will en~ure tMI 8udito;m; and supervisors
perfornling OMB C ircular A- I:n compl iance au dils have (w.iniIlK j" Ih... applica ti on and

                                                     ,




                                                   17 

RS-4225.4                                                                            October 6, 2010
SUBJECT- Response ta DaDlO Preliminary Review RuullS - Report on Quolity C('ntrol
             Ikview of Delait te & TQl>Ch~, LLP and Defense Contmct Audit Agency FY 2008
             Single Audit of The A<,rospace Corponlliun (Proj<,ct No. 02009-D1POAC-302.000)

impJcment~tion ot'Duditing standards in meeting Circular A-I JJ audit requircme-nl-' in
accOfdancc with GAGAS 3.40 IUld OCAA MltD 08-1'1'0-031 (R), dated October 2,2008 , by
December J 1,201 0. As of August 31 ,2010, the e ntire PAO i'itaffha~ comllletcd fonnaltrainin~
in GAOAS developed by the Dcfell5e Contract Audit Institute (DCAA·~ tril ining r...ci lity). The
FAD will prc ~cnt the specific OoDIO findlnllS to auditors perfonning A-I 33 audit, by Novcmbe-r
30, 2010.

ADIllTIONAL CO:\1MENTS ON DolllG (uU.IT REPO In" NARRATIVE;

DoDi G Findings :

          Ff1Iud Ruk Auenm~nt Proc td unil (pa ge 2): DCAA did nOI fN'rfo..", suJJicicnrfralid
riJ·k Wj.•tssmmt pro<,edllrts dlJring the plnnning (md Mrfnrmance of the (lIIdil

        FAO Co mm ent : The au dit t"am initiated cOlTCCti ...... /lctions during its audit oflhe
Aernspace FY"2009 OMS <.:ireular A-133 audit in response ta IG comments provided during its
QUdlity Control Review (QCR). The team obtained >md review.::d the Independent Public
Accounll1lllS (IPA) review ofiroud risk., communicated wilh Ihe Huditec, ami evaluated the
potential impact of linud indicalors 10 delcnnine adUitional proccdurc~ to be pt:rf...,nned. The
FAO ,~ill conlinue 10 evaluale and enhance ils pr~dures 10 adt-quatdy document the fraud risk
during planning and !:H:rfanIlance and to design additional procedures as necessary for the FY
2010 A-13 3 audil in acconbncc with AU J 16.

        KcpOrlinl1. FrAud in Ihe Circula r A-l33 Audit Repo rt (1'II.g~ 3) : Th~ DCAA auditors
did not rcporl the idtmijlcdfrawd as a" audi,ji"ding ill Ihe singl. nudil uporl s,·h ..,h,l, of
fi"dmg5 and quesliorled cosU In lICcardallce with CirClllar A+J jJ retw""'g requirements

        FAO Co mm~nl : Sec response above rell",ding the Doore! Recommendation 2a.

        Eva lualin g and I{eporting af II. I)die ienry in I.ntcr na l Cu nlrol over Cu mpli~ne" ..·jlh
ells" Management Kt'luircmentlf (page 4); UCAA did nOI properly e'·alume a!ld reporl a
finding If! {f1ler-1Il1 cumrol di~clos~d during Ih re_iew vJlhe inlanal ca",rol vver camp/it",ce
",Ill! Ihe ~ash mOllilgemerll requiremenls. In (urdilian. OC..4i1 did nal ad~qualto/y doeument
raliO/wlcfol" ils "udil position vr I/It' I~sllng qf cumpensating COl1lrul.,.

        FAO Clllnmcnt: The FAO will re-issue its report and intlude the deficiency as II
si~tific~m intenu!.l ~o"trol deficiency. Th e audit learn will discUl!5lhc findings in this report lit
ils te3m mCl.'tillg5 to ensure thm team ~udjtors undersland the requirements of A-133 as we\llls
documentation requirements. The FAO witllllso provide addition"! training 10 all per&llmel
invol"ed in thc A· 13) audit to enhance work P"P'" documcnltllion.

       "e ~ror",Hnec Alld Ou<:unnnUli(ln ofPlanntd Tuting or I nfor ma tion Tl'chnology
Inlernal Crmlrob (pJlg.. 5): DCAA did nnl cO"'p/rI~ rhO! If.',/ing t)fk~y injormalilJll tedlllQlagy


                                                    )
                                                                                       Encl.sour f!




                                             18 

l~S-4   225.4                                                                         October 6, 2010
SUe m C f : Rl-sponse. lO OolJlG Preliminary Review ResullS - Report on Quali fy Control
            Review of Dcloitw & Tou~hc, LLP lind Defcnse Contract Audit Agency FY 20011
                Single Audit of the A~lllspace CO!JlOration (Project No. LJ2009·DJI'OAG-302. 000)

comro/s a!! p/mmed ond Ihe documentalion did nOl provide u cli.'ur UnderJfanding oflhe audit
...Qrk p81/Qrmed or Ihe proudurl.'~' relied all.

         FAO Rc~ponje ; The FAO will rc-cvo lllllll: tlte key controls foJ' informati on technology
testioil and will enhance its documentation ant:! review process \0 ensure that controls identified
for testing 0'"" c learly id",mified and testing perfonnoo is adequately und dearly dooumented.
When reliance is 10 be placed on Ihe If'A work perfonned. documenlat ion wiU c learly tic the
work perfo rmN 10 the specific controls idonli lied in "ur planning. The FAO is cu""""t]y
~~!l.luating available training courses 10 enhance auditors' knowledge of and prucedures for
documenting and testing Minlc mol conlrolg.

         C., h Man.ge meUI a nd S pecia l TUIS DOli P ro .· i5 io n~ In lenlll i Control
Uoc umtntallo n (P:lK~ til: Tile /)CAt! ol/diwrs did n(Jl od~quale/)' doclI'>umllhe inlernul
Call/rob 'hey relierl On to suppon I:Vnc/usion.r 0/1 fhe od~quac:y ufconn'o/sJor ,he cash
mmlO${e",en/ und spec/ol 1<:$/$ and prOl·is/of!S requirements. Specifically. the workin${ papers
SIale 11",/ rhl.' (lUdiforb· plonncd 10 rely. in purl, on in/ernul cantrall les/ed in Ille ",,'iew of
ucl;"iliI!S aI/owed or unallowed alld alloll'uble cosl8/cO~·' prim:iple requiremenls.

        "AO Co mmen t: l1a>t:d on comments provided during {he course oflhe QClt ,""view, lhc
auditom ",nbanced tbe docurncnlulion in lbe Aerospa.;e "Y 2009 A· 133 audit 10 include specific
refcorcnec to controls identifioo an..J le5too in the re"iew oractivilies allowed or unalloweo and
allowable COS15lCOSI principle requirements. The FAG bas taken steps to identify ~nd eliminat'"
work pape rs which essentially duplicate OIher work papers. The FAQ will continue 10 assess its
work paper structure to mai ,uain II dear aud it troOil Wilbou! unnecessary duplication iJf
information.

         Te51ing Co mp lia nce ro r Activ ilit's A llowed or Unll ll \lwed a nd All owablf COS!$lCost
 Prinfi pl u Cllmpl ill Me Req u ire mco l.'l (p ~gt 6): The DeM oudilors did nol adequQ/ely
dUCl/menllhe ",,';ew of rolllplinlll:~ for fhe a .. lfvilliI$ aI/owed or !lflQl/owed and allowable
cosis/co;"ll'rincipies requirements. Specifically the dOC'Jnl<'nlDlion did nol idefllifjJ I/!~ specific
COSt principle crllerio used ro re,·iew ~·u;lSfm' QI/owoblilify: did 1101 prQl"ilie 'he basil for Ihe
judgm<'lltthm internal control excllpiiollS noted duringjlaorchecks w.re no/ cansid~red
sig"ijicolfl; ,md did 111)1 do<:umenf Ih~ procedure peiformed fmd Ihe r"Ylltls of/hose pmcedures
10 ,-erifj. thr ('xiSlence ol employces "01 p'<'Senl during the jloorchedu. In ,,""iliQ"_ Ih~ o",/iIOr$
did '101 doc<lm~"'I"Q/ they l't~riJied Ihe limecard owhorlzmlml$ w/lhfn flit elec""nlc (/meiu!epitrS
Sj"JJ /em .




                                                                                        £t\cl"" .. u .




                                                   19 

RS ·422S.4                                                                              Oclober6. 2010
SUBJECT:        Respon~e 10 00010 Preliminary Review Results - Repllfl 0" Quality Conlrol
                Revi ~w ufDclo;tu:: & Tuuchc, LLP and Defense Conlrad Audit Agency Py 2008
                Single Audit ufThe ACf"()sp!lce Corporation (ProjecT No. D2009-D IPUAC-J02.000)


         FA D C omm e nt : B~d On comments provided during the t"Qur.;e "rthe QC R review, the
PAO initia ted action S to enh~n.:e dOCUrn~nlalion pTOCIXh ...,s during the Aeruspace FY 2009 A-
113 audiL We will continue to enhance documentation and will provide additional tminin g 10 311
~udilor.l" involved in Ihe A-I33 audil proccss.


        Fi~ld    Detachment Coo r d ina tion {(U1lle 7): Tlte iJCAA working papers- did '1()1
adequnldy docummt, liS requfred by go""rnmenl Qullilln;.; s/olw)orrlJ rind IX'AA /}OlIey. I""
t'oOl'rli/lol/<Jn wlrlt J)(",AA Fit':!d ()IJw,·h",~m (lr d~arly idemify Ihi <lI"lit work performed by /he
Field InWdllntUlI GudilOr" .

        •' A U Co mm ~ nt ; Bll..'<Cd on comment~ provided during the QCR, the FAD had
I"t!COB"ized the requirement 10 m~ clearly Ilnd specifically documem the 8gr~""",em rellecI;nS
the work to be ~rform"d by the Field Dclach"' .... n{ 1I,lllilUrs. All ful u,,, alldits will contain
specHic actions!o he taken by Field Detachment"" part afLhe documcntation of coordination of
the audilS.

       PicaSII' dir<:cl any queslions corlecmllll! this memorandum 10 Ms. Patric ia A . Wilw",
Branch MarlHf!\er, South Bay Brooch Office, al (1 10) 965 -7020 ,



                                                          I~I Sleph~n T. Larkin
                                                  /fori   DONALD L. MUI.T,i"NAX



   .,
                                                          R"C ionra1 Director

{inc losure :

      9:
        ""
  oO.tl_D-.n
~~O'>""~U I Q"


Copy fumi§hed :
   OX
   ItAMr:... ~
   RO-4
   FA0 4·121




                                                      ,                                   "'" e l 08ur ..




                                               20 

· , ..
